r>

a

Supreme Court,1 U
FILED

No.

20-7J

JAN 2 5 2021
—OFFICE OF THE Cl FRl<-

SlTT
JAM 2/1 m

IN THE
SUPREME COURT OF THE UNITED STATES

NELSON VIERA- PETITIONER
vs.
MARK INCH, SEC. Fla. DEPT. OF CORRECTIONS - RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
ELEVENTH CIRCUIT COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

PETITION FOR WRIT OF CERTIORARI

Nelson Viera
(Your Name)

1599 SW 187th Avenue
Miami, Florida, 33194 - 2801
305-228-2000
(Phone Number) Warden

L' „

QUESTION(S) PRESENTED
1.

Whether the lower Courts are properly interpreting and implementing the

Supreme Court decree about jurisdiction and fraud upon the Court under Rule
60(d)(3)(l) Motion.
2.

Whether the District Court where the fraud has occurred, has completed its

decision making process, and whether the result of that process does not lead to a
miscarriage of justice.
3.

Whether a Court of Appeal abuses its discretion in refusing to permit

consideration of a vital intervening legal development when the failure to do so
precludes a District Court from ever giving any adjudication of Petitioner’s Rule
60(d)(3)(l) on the merits.
4.

Whether the public has a right to have confidence that all lawyers who are

members of the Bar are deserving of their trust in every transaction.
5.

Whether the public welfare demands that the agencies of public justice be

not so impotent that they must always be mute and helpless victims of deception
and fraud. Hazel-Atlas, 322 U.S. 238, 64 S. Ct. 997, 88 L. Ed. 1250 (1944) Id. at
322 U.S. 246.

► .

LIST OF PARTIES
[ ]

All parties appear in the caption of the case on the cover page.

[X]

All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceeding in the court whose judgment is the subject of
this petition is as follows:

Attorney for the Respondent
Assistant Attorney General - Magaly Rodriguez
Office of the Attorney General - Suntrust International Center, 1 S.E. 3rd Ave.,
Suite 900, Miami, Florida 33131
RELATED CASES
Hazel-Atlas, 322 U.S. 238, 64 S. Ct. 997, 88 L. Ed. 1250 (1944) at 322 U.S. 246.
Gonzalez v. Crosby, 545 U.S. 524, 162 L. Ed. 2d 480, 125 S. Ct. 2641 (2005)
Demjanjuk, 10 f. 3d 338 (6th Cir. 1993).
Bressman, 874 F. 3d 142 (3rd Cir. 2017).

in

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

1-9

REASONS FOR GRANTING THE WRIT
CONCLUSION

1-24
25

INDEX TO APPENDICES
APPENDIX

A - Eleventh Circuit Court of Appeal affirming
District Court’s denial of Petitioner’s Rule 60
Motion.
APPENDIX B - District Court’s denial of Petitioner’s Rule 60 Motion
APPENDIX C - Order of the Eleventh Circuit Court of Appeals denying
Petitioner’s Petition for Rehearing on August 27, 2020.

IV

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

AbduR’Rahman, 537 U.S. 88, 154, L. Ed. 2d 501, 123 S.Ct. 594 (2002)

Bressman v. Thomas, 874 F. 3d 142 (3rd Cir. 2017).......................................

7,8,13

1,13

Browning, 826 F. 2d 335 (5th Cir. 1987)..........................................................

14

Buell, 48 Fed. Appx 491 (6th Cir. 2002)..........................................................

10.14

Burton v. Steward, 549 U.S. 147, 152, 127 S.Ct. 793, 166 L.Ed. 2d 628 at
153 (2007)................................ ...........................................................................

10

Calderon, 523 U.S. 538, 140 L. Ed. 2d 728, 118 S.Ct. 1489 (1998)............

9

Chamber v. NASCO, 501 U.S. 32, 115 L. Ed. 2d 27, 111 S. Ct. 2123 (1991).....7
Dausel v. Dausel, 90 U.S. App. District Court 275, 195 F. 2d 11A (1952)

10

Demjanjuk, 10 F. 3d 338 (6th Cir. 1993)........................................................ 1,3,11
■■i

Gonzalez v. Crosby, 545 U.S. 524, 162 L. Ed. 2d 480, 125 S. Ct. 2641 (2005).... 1
Harris v. Nelson, 394 U.S. 286, 299-300, 22 L. Ed. 2d 281, 89 S. Ct.
1082 (1969)..................................................................................................

11

Havenfield Corp. v. H&R Block, Inc., 509 F. 2d 1263 (8th Cir. 1975)..,

6

Hazel-Atlas, 322 U.S. 238, 88 L. Ed. 1250, 645 S. Ct. 997 (1944)......

passim

Kenner, 387 F. 2d 689, 691 (7th Cir. 1968)..............................................

9

Klapprott, 93 L. Ed. 266, 335, U.S. 601-631 (1948)..............................

12,17/

Liljeberg, 486 U.S. 847, 100 L. Ed. 2d 855, 108 S. Ct. 2194 (1988)....

12

Marshall v. Holmes, 141 U.S. 589, 35 L. Ed. 870, 12 S. Ct. 62 (1891)

8

Mobley v. Head, 306 F. 3d 1096 (CA 11 2002).......................................

13

Murchinson, 349 U.S. 133, 136, 99 L. Ed. 942, 75 S. Ct. 623 (1955)...

X7

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Plaut, 514 U.S. 211, 131 L. Ed. 2d 328, 115 S. Ct. 1447(1995)

12

Publicker v. Shallcross, 106 F. 2d 949, 952 (3rd Cir. 1939)........

12

Rodriguez v. Mitchell, 252 F. 3d 191, 199 (CA 2, 2001)............

2

Rozier v. Ford Motor Company, 573 F. 2d 1332 (5th Cir. 1978).

6

Stephens v. State, 974 So. 2d 455, 457 (Fla. 2nd DCA 2008).............................

13,

U.S v. Beggerly, 524 U.S. 38, 141 L. Ed. 2d 32, 118 S. Ct. 1862 (1998)......... 7,8
United States v. Key, 205 F. 3d 773,11A (5th Cir. 2000)...................................

10

United States v. MacDonald, 1998 U.S. App. Lexis 22073, No. 97-7297 1988
WL637184 (4th Cir. Sept. 8, 1998).....................................................................

9

William v. Taylor, 529 U.S. 420, 146 L. Ed. 2d 435, 120 S. Ct. 1479 (2000).... 5,10
Workman v. Bell, 245 F. 3d 849, 852 (6th Cir. 2001).........................................

vi

9

•V

STATUTES AND RULES
.2
11

Title 28 U.S.C. § 1254(1)..
28 U.S.C. 1651.................
28 U.S.C. § 2244(b)(2).....
28 U.S.C. § 2244(b)(3)(A)
28 U.S.C. § 2254..............

13
10
passim

Rule 26(e)(2), Fed. R. Civ. P
Rule
60(d)(3)(l)
Rule
60(b)(6)
AEDPA.

6

ii,2,13| J
....11,12
9

OTHER
Black’s Law Dictionary 594 (6th Ed. 1990)...................................................
11 Wright and Miller, Federal Practice and Procedure § 2870 at 409 (1995)

Vll

5
9

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
Va [}£] • For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix B to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ]

For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix B to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_______________
at Appendix___to the petition and is

appears

[ ] reported at_________________
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1

JURISDICTION
For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was June 11, 2020.
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition rehearing was denied by the United States Court of
Appeals on the following date: August 27, 2020, and a copy of the order
denying rehearing appears at Appendix C.
[ ] An extension of time to file the petition for a writ of certiorari was
granted to and including
(date) on
(date)
in Application No.___A
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).

[ ]

For cases from state courts:
The date on which the highest state court decided my case was
_______________ . A copy of that decision appears at Appendix__.
[ ] A timely petition rehearing was thereafter denied on the following
date: ___________________ , and a copy of the order denying
rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was
granted to and including
(date) on
(date)
in Application No.___A
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2

*

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

No constitutional and/or statutory provisions involved. Petitioner is
proceeding pursuant to Fed. R. Civ. P. 60(b)(d)(3)(l).

3

STATEMENT OF THE CASE
This case began according to Detective Nunez from North Miami Beach
Police Department one night when he received a call from his confidential
informant (C.I.) telling him that he had just spoken (by phone) to a individual who
wanted to sell 700 grams of heroin (there is no recall of that call). One day later, on
September 22, 2005 the Petitioner Viera was arrested (and remains incarcerated
until today) for count of felonious violations in the laws of Florida to wit: Count
One: Illegal drugs/trafficking/28 grams or more F.S. § 893.135(l)(c)(l)(c) Fel. 1st
deg., Count Two: Illegal drug/conspired to trafficking/armed F.S. § 893.135(5),
777.04(3) and 775.087 Life felony; and Count Three: Illegal drugs/trafficking/28
grams or more 893.135(l)(c)(l)(c) Fel. 1st Deg. plus an additional count for
violation of probation. The jury found him guilty of Count 1. Count 2 and 3 were
dropped during jury trial.
On or about May 24, 2007, Petitioner was taken to V.O.P. Hearing prior to
jury trial and found guilty by Judge Bertila Soto and given an overall sentence of
twenty five (25) years for various violations of the conditions of probation only
depending on the new charge of conspiracy to trafficking in illegal drugs (Count 2)
that was dropped during jury trial. Appeal was timely filed for V.O.P. and affirmed
on February 27, 2009.
The trial in this matter was held on August 7, 2007 and sentencing was held

4

on December 12, 2007. The Petitioner was sentenced to forty (40) years DOC as
habitual felony offender plus $500,000 dollars fine to run concurrent to his V.O.P.
25 years.
An appeal was timely filed, the Appellate Court reversed and remanded for
resentencing by another Judge, maintaining that the 40 years sentence was in legal
parlance vindictive. Upon resentencing the Honorable Judge Fernandez imposed a
25 year sentence upon the movant. The public defender office has provided all
legal representation at all stages of defense in this case, including appellate
process.
In this case, the Petitioner was set up by a one time fellow inmate who had
done time with him at Desoto Correctional Institution, same dormitory, in fact he
slept next to him within 3 feet. Jose Raul Gallardo slept in B Dorm, 1124 and
Petitioner slept in B-Dorm, 1125.
On the morning of September 22, 2005, the Confidential Informant Jose
Raul Gallardo went to the Petitioner’s apartment and unknown to Petitioner Viera
the C.I. was wired. After that the C.I. invited the Petitioner to eat something at
McDonald’s located at 88 st. 129 Ave. near Viera’s apartment and the C.I. paid for
lunch. They talked about several issues especially the fact that Viera was looking
for employment. The C.I. claimed that a friend of his in North Miami Beach was
looking to hire someone to assist him with his handyman business. The Petitioner,

5

in the hopes of a job, was lured into the C.I.’s vehicle and driven to North Miami
Beach. About 3:00 p.m. that same day, the drive took approximately one hour and
unbeknown to Viera the C.I. again had been wired. Later review of the recordings
reveal that not one word is mentioned pertaining to drugs, heroin or illegal activity,
not even slang. The Petitioner being in N.M.B. seize the opportunity to see two of
his children at Joe Joe’s Party Supply Store (co-defendant’s place of work), who is
ex wife and mother of Viera’s children, and picked up Nike shoes, that, he had
purchased for his son and needed to be returned due to the wrong size. Viera came
out from the store carrying a bag with the shoes, and threw the bag in the back seat
of the car. They drove approximately 5 or 6 blocks and stopped at the Sunoco gas
station. As soon as the C.I. exited the car a man, Detective Ramirez (who does not
appear on the witness list and is only mentioned two times by Detective Holleran
in his deposition pg. 6) approached the car and after identifying himself and
explaining that he was there because he had received a call that there were two
suspicious individuals in the vicinity, he told the Petitioner to step out of the car
and stand behind the vehicle while he searched it. After that the Petitioner saw
Detective Ramirez move a package from the back area of the car and place it on
the front floor board of the car where the Petitioner had been sitting (this package
was unnoticed by the Defendant to have been there). A minute later another
Detective Mr. Robert Holleran (Metro Dade Police Department, same squad as

6

Detective Ramirez) approached and identified the substance in the package to be a
white powder substance (Holleran’s depo pg. 5, 7). The Defendant was transported
by himself to the back of the gas station for interrogation.
The police did not collect a gas station’s surveillance video, which Viera
later requested in the county jail. His public defender in response sent a letter to
Petitioner stating “as I explained before, they don’t have a video because this case
is quite old. The gas station cannot say whether or not the video was available at
the time of the incident. We cannot make anyone produce something they don‘t
have. We can mention the lack of it in trial. (But she didn’t). See Rule 60(b)
Motion Exhibit F. This video could have cleared that any package was found at his
feet. This exculpatory evidence could have provided his innocence if surveillance
tapes had been pulled.
There was no traffic stop, it is further important to note this incident was in
North Miami Beach, so why Metro Dade initiated contact is an interesting
question. They don’t testify at Petitioner Viera’s trial. According to Detective
Nunez from North Miami Beach Police Department the Petitioner gave a sample
to the C.I., but the alleged sample was never produced in none of the proceedings
(Trial Transcripts pg. 289, lines 24, 25, pg. 290, lines 1-3 ) nor fingerprints
recovered (Trial Transcripts pg. 187, lines 5-7, pg. 245, lines 14-25, pg. 246, lines
1-7) from the sample or from the 512 grams impounded at the arrest (T.T. pg. 190,

7

lines 14-16; 288, lines 1-10).
According to the transcripts conversation, supposedly between the C.I. and
the Petitioner (who does not know if he really participated in that conversation as
he has never heard the original recordings). The C.I. offered the Petitioner money
for his participation (See transcript of audio tape, pg. 5, lines 8-13, not numbered)
but, during trial the Detectives Nunez and Perez changed the fact and said that it
was the Petitioner instead of the C.I. who offered money (T.T. pg. 149, 239, 240).
Prior to the meetings arranged between Petitioner and the C.I., the police
supposedly searched the C.I. and his car to make sure there was not contraband
(T.T. pg. 184-185, 186, line 1). Sergeant Perez testified that he saw Petitioner’s co­
defendant hand him a plastic bag (T.T. pg. 237). This store does have very dark
tinted windows on them and it is impossible to see inside from the outside
specially from 10 feet. The Petitioner has some pictures from the Joe Joe’s Party
Store provided by his public defender. The police State’s witness also said during
trial that Petitioner told Sergeant Perez that Jessica De Garcia was the person that
gave him the bag (T.T. 239), that Petitioner voluntarily waived his Miranda right
(T.T. pg. 227-228, 292). When Perez interviewed him in an interview room (T.T.
pg. 226, lines 19-25, pg. 227, line 1) but decided not to record the conversation
(T.T. pg. 248-249, 292, 293) what did the Petitioner say? Whatever Sgt. Perez
wanted to say against him, in fact, it is Sgt. Perez’s word “under oath” against the

8

Defendant’s word (a convicted felon). Also the prosecutor very worried about the
purity of the drug (T.T. pg. 12), the Judge stated “That is not even an issue. One
more thing no less important: the most experienced officer Detective Holleran
found the alleged heroin in the C.I.’s car, and in his deposition (pg. 5, 7) alleged “I
went to the passenger side door, I observed a plastic bag with a white substance in
it.” The Detective Holleran did not testify (T.T. pg. 165-166), but Detective Nunez
presented “brown heroin” as the supposed drug seized at the time of arrest (T.T.
pg. 161). The Petitioner now asks, where is the original evidence confiscated by
Detective Holleran on September 22, 2005?
Honorable Justices of the Supreme Court, Petitioner has never had an
investigation of his case nor an evidentiary hearing requested in State Court and
Federal proceeding as well. The Petitioner, Viera only would like to prove his
innocence in a legal trial (T.T. pg. 3, 4, 5, 15). See Petitioner’s Rule 60 Motion
page 3-9 where the Petitioner detailed both fraud on the Court that agents of the
government committed in his State Court proceedings as well at the time of Viera’s
§ 2254 habeas corpus.

9

REASONS FOR GRANTING THE PETITION
The lower Courts’ decision erred in failing to correct a manifest injustice,
where the Petitioner shown that his conviction was obtained by fraud on the Court.
The lower Courts’ decision conflict with the relevant decisions of this Honorable
Court in Gonzalez,

Hazel-Atlas,

and with other Circuit Courts’ decisions in

Demjankjuk,3 Bressman, 4 and the view of one Justice of this Court, in a confused
area of law. Additionally, the issue that is addressed here is of great public
importance.
Petitioner is presenting an important federal issue of jurisdictional dimension
in which the lower Courts did not reasonably extend the standard prescribed by this
Court in Gonzalez, Hazel-Atlas, appropriately to the facts and laws of the
Petitioner’s case.
The Circuit Court as well as the District Court declined to resolve the claim
of fraud that Petitioner brought to the attention of the Court where the fraud
occurred and for whatever reason let take to this Court’s authority, prudence and
wisdom the disposition that should be made in such cases. The Petitioner is not
asking for special treatment, only what is required, entitled as a matter of law.
In 2005, the Supreme Court in Gonzalez v. Crosby, stated “A Rule 60
Motion that attacks a defect in the integrity of the federal habeas proceeding itself,
is permissible and will not be construed as a second or successive habeas petition.”
See Appendix A, pg. 5-6. The Supreme Court also added “fraud on the federal

1 Gonzalez v. Crosby, 545 U.S. 524,. 162 L. Ed. 2d 480, 125 S. Ct. 2641 (2005)
2 Hazel-Atlas, 322 U.S. 238, 64 S. Ct. 997, 88 L. Ed. 1250 (1944)
3 Demjanjuk, 10 F. 3d 338 (6th Cir. 1993).
4 Bressman, 874 F. 3d 142 (3rd Cir. 2017)

habeas Court is one example of such a defect.” See generally Rodriguez v.
Mitchell, 252 F. 3d 191, 199 (CA2, 2001)(A witness allegedly fraudulent basis for
refusing to appear at a federal habeas hearing “relate [d] to the integrity of the
federal habeas proceeding, not to the integrity of the State criminal trial.”) We note
that an attack based on the movant’s own conduct, or his habeas counsel’s
omission. See e.g., supra at 530-531, 162 L. Ed. 2d at 491-492, ordinarily does not
go to the integrity of the proceeding, but in effect ask for a second chance to have
the merits determined favorably.” Id. at 532 & n.5 125 S. Ct. at 2648 * n.5.
As an example of such a Rule 60 Motion that beyond any doubt attack a
defect in the integrity of the federal habeas corpus proceeding itself is Petitioner
Viera’s Rule 60(b)(d)(3)(l) Motion. This Court should note that Petitioner’s attack
is only based on the Assistant Attorney General Magaly Rodriguez’s misconduct,
and not on his own conduct, or his habeas counsel’s omission (Petitioner is
indigent and pro se from the onset). Consequently, his attack ordinarily does go to
the integrity of the federal habeas proceeding.
Petitioner Viera is calling into question the very legitimacy of the judgment
obtained by fraud upon the Court that agents of the government perpetrated on the
federal Court which led to the denial of the habeas petition. Rule 60 Motion, pg. 3,
8-20.
In Petitioner’s case, a key exculpatory witness did not appear or were
presented during federal habeas corpus proceeding for one reason: the State’s
habeas counsel Ms. Rodriguez (fraudulent basis) who’s having a sneering disbelief
in sincerity, integrity or a vicious disregard of the rights or concern of other
“knowingly” reaffirmed. Supported and continued her prior State Attorney’s
misleading position that “the Confidential Informant (C.I.) was unavailable to

2

testify at trial as he had been deported,” even if she found no evidence in the record
to support the State misleading statement. Even so, she maliciously denied that the
C.I. claimed by the Petitioner was a C.I. that worked in this case, disguising her
assertions and blaming the lack of record that she ironically she herself controlled
and manipulated (See DE# 13, pg. 54-55) and in this way prevented the District
Court and Petitioner be aware that the C.I. Jose Raul Gallardo claimed by
Petitioner was at the time of trial as well at the time of habeas corpus proceeding in
State’s custody on a modified 15 year probation monitoring sentence reporting
monthly to the Court. The Petitioner timely and consistently objected to the State
misleading response only to be told he was wrong. As it turns out, he was right.
See Appendix A, pg. 2-3)
This critical information (material exculpatory evidence) along with others
pertinent to this case as an extensive C.I.’s prior drug trafficking record of 19 cases
(impeaching evidence that could have possibly led to a conviction of him)
Demjanjuk, 10 F. 3d 338 (6th Cir. 1993) Id, at 338, that the C.I. was available for
deposition, and not in I.N.S. custody as the State fraudulently claimed was
documented on C.I.’s Jose Raul Gallardo criminal cases, Court docket sheet which
Petitioner presented as support of his undeniable allegations. See Rule 60 Motion
pg. 4 at the top, pg. 5 at the bottom, and Exhibit A.
The Magistrate Judge in his Report (DE# 21, pg. 27-28) recommended
denial of Petitioner’s § 2254 petition, Ground Five, stating “Other than Petitioner’s
unsupported allegations, there is no competent evidence of record that the C.I.
would have provided exculpatory testimony and/or was available to testify as a
witness at the time of trial. See also Appendix A, pg. 2-3. The District Court
adopted the recommendation and denied Petitioner’s § 2254 petition. The State
habeas counsel Ms. Rodriguez knew or should have known before she filed her
3

“Response” (DE# 13) everything abut the C.I. The Petitioner let her know where,
when and how he befriended C.I. Jose Raul Gallardo. See (DE# 1, pg. 9-10) and
especially detailed in his Reply Brief (DE# 19, pg. 21-28). She had the opportunity
and ample time to verify Petitioner’s true assertions about C.I.’s identity and
whereabouts. And so this question is why Ms. Rodriguez denied that the C.I. that
was claimed by the Petitioner worked in his case? Perhaps to deviate the
Magistrate Judge’s attention in the hope to avoid any possibility of the Court’s
disposition of this contradictory material exculpatory evidence uncovering Ms.
Rodriguez’s fraudulent activities. Other question no less important is why the
Petitioner’s public defender trial counsel did not locate these documents in public
record? The District Court reasoned that trial counsel adequately and properly
investigated the facts and whether the C.I. was available to testify at trial
(Appendix A, pg. 2-3). But at the same time the Magistrate Judge requested
competent evidence about C.I.’s availability to testify as a witness at trial and
exculpatory evidence and this competent evidence is documented on the C.I. Jose
Raul Gallardo’s Court docket sheet and his criminal “drug” 19 cases presented by
the Petitioner in his Rule 60 Motion Exhibit “A.” Perhaps these documents at that
time were available with faulty information and not disclosing the full extent of the
situation. But one thing is true, if Petitioner’s family located those documents (in
public record) at 2017, there is no reason to think that the State’s habeas counsel
could not have done so as well at the time of habeas corpus proceeding. To be
honest, the Petitioner was surprised to learn of the existence of the C.I.’s Court
docket sheet in the public records with the information requested by Magistrate
Judge during Viera’s habeas corpus proceeding, which uncovered two fraud
instead of one (one in State Court and the other during all the proceedings of his §
2254 petition). Of course, Court docket was not available while the State
Attorney’s fraudulent events and the State’s habeas counsel was taking a
4

fraudulent position against Petitioner.
In few words when Ms. Rodriguez chose not to disclose and intentionally
concealed from Magistrate Judge and Petitioner the competent evidence that the
C.I. was in State custody during all the proceedings, even at the time the
Magistrate Judge filed his Report (DE# 21) recommending denial of Petitioner’s §
2254 petition and adopted by the District Court, his extensive prior drug trafficking
record

of 19 cases, (impeaching evidence that could have possibly led to a

conviction of him), misrepresented material facts, arguments, and presented bogus
evidence in support of State fraudulent position in her Response (DE# 13 pg. 54,
55) She directly impacted the administration of justice. The State’s habeas counsel
Ms. Rodriguez never allowed the District Court to rely upon the truth. The District
Court’s reliance on Ms. Rodriguez’s Response (DE# 13) impugned its integrity. It
was a total fraud on the Court. One wonders, did Ms. Rodriguez ever think that her
fraud upon the federal Court might be uncovered?
The Petitioner would like to clarify the Circuit Court’s misinterpretation of
the Magistrate Judge’s words given in his “Report” (DE# 21) recommended denial
of his § 2254 petition, Ground 5. See Appendix “A” pg. 2-3 where the Circuit
Court stated: “Viera failed to produce competent evidence...” Report of Magistrate
Judge (DE# 21, pg. 27-28) said: “Other than Petitioner’s unsupported allegations,
there is not competent evidence of record... .” Petitioner Viera did not fail in to
produce competent evidence of record due to the following:
See William v. Taylor, 529 U.S. 420, 146 L. Ed. 2d 435, 120 S. Ct. 1479
(2000) at 529 U.S. 432 (See also Black’s Law Dictionary 594 (6th Ed.
1990)(defining “fail” as [fjault, negligence, or refusal”). To say a person has failed
in a duty implies he did not take the necessary steps to fulfill it. He is, as a

5

consequence, at fault and bears responsibility for the failure. In this sense, a person
is not at fault when his diligent efforts to perform an act are thwarted (as occurred
in Viera’s case), for example, by the conduct of another (State’s habeas counsel
misconduct in Viera’s case) or by happenstance. Fault lies, in these circumstances,
either with the person who interfered with the accomplishment of the fact (Ms.
Rodriguez in Viera’s case) or with no one at all. We conclude Congress used the
word “failed” in the sense just described.
The person who beyond any doubt “knowingly” failed in to present
competent evidence (exculpatory and showing the C.I.’s availability to testify as a
witness at the time of trial) was the Assistant Attorney General Magaly Rodriguez,
who made no attempt to then disclose that evidence requested by Magistrate Judge,
nor did she take any measures whatsoever to introduce this critical evidence. Ms.
Rodriguez, yet it is failing to do so. See Rozier v. Ford Motor, 573 F. 2d 1332 (5th
Cir. 1978) Id. at Footnote 10. Fords duty (Ms. Rodriguez’s duty in Petitioner
Viera’s case) to amend its/her inaccurate Response is based on Rule 26(e)(2), Fed.
R. Civ. P.: “A party is under a duty seasonably to amend a prior response if he
obtains information upon the basis of which (A) she knows that the Response
though correct when made is no longer true and the circumstances are such that a
failure to amend the Response is in substance a knowing concealment.” See
Havenfield Corp. v. H&R Block, Inc., 509 F. 2d 1263 (8th Cir. 1975), cet. denied
421 U.S. 999, 95 S. Ct. 2395, 44 L. Ed. 2d 665.
Petitioner’s Rule 60 Motion provides clear evidence of State’s habeas
counsel Ms. Rodriguez’s misconduct or prohibited behavior, such as plots to
deceive or unduly influence the judiciary.
The Petitioner filed his Rule 60 Motion in the District Court where the

6

conspired fraud occurred. See Abdur’ Rahman, 537 U.S. 98, 154 L. Ed. 2d 501,
123 S. Ct. 594 (2002) In Justice Steven’s views, “Correct procedure requires that
the merits of the Rule 60(b) Motion be addressed in the first instance by the
District Court.” Id. at 537 U.S. 97. The Honorable Judge who at the time of
Petitioner’s habeas corpus proceeding was misled, mocked and deceived by the
State’s habeas counsel Ms. Rodriguez, aware of Petitioner’s undenied allegations
along with an undisputed evidence presented, held “The Motion to Set Aside is
dismissed for lack of jurisdiction.” See Appendix B, pg. 1 and “The present
Motion to Set Aside is in truth a successive section § 2254 petition and also fails
on the merits.” Id. at pg. 5. The Circuit Court of Appeals in an ample abuse of
discretion affirmed.
The Supreme Court has repeatedly held that Federal Courts possess the
inherent power “to vacate {their} own judgments upon proof that a fraud has been
perpetrated upon the Court.” Chambers v. NASCO, Inc., 501 U.S. 32, 44, 115 L.
Ed. 2d 27, 111 S. Ct. 2123 (1991) (citing Hazel-Atlas Glass Co. v. HartfordEmpire Co., 322 U.S. 238, 88 L. Ed. 1250, 645 S. Ct. 997 (1944)). The power to
grant “equitable relief against fraudulent judgments is not of statutory creation.”
Hazel-Atlas, 322 U.S. at 248. This equitable power was “firmly established in
English practice long before the foundation of our Republic.” Id. at 244.
Petitioner relies on the decision in Hazel-Atlas, supra, believing that this
action should be maintained as an independent action within the savings clause of
Rule 60(b). See Rule 60 Motion pg. 2, 15, 16.
In United States v. Beggerly, 524 U.S. 38, 141 L. Ed. 2d 32, 118 S. Ct. 1862
(1998) where the District Court dismissed the complaint for lack of jurisdiction,
this Court stated “The government is therefore wrong to suggest that an

7

independent action brought in the same Court as the original lawsuit requires an
independent basis for jurisdiction.” [524 U.S. 46].
In Beggerly, supra, this Court stated “Independent actions must, if Rule
60(b) is to be interpreted as a coherent whole, be reserved for those cases of
“injustices which, in certain instances, are deemed sufficiently gross to demand a
departure from rigid adherence to the doctrine of res judicata.” Hazel-Atlas, 322
U.S. 238, 244, 88 L. Ed. 1250, 64 S. Ct. 997 (1944).[524 U.S. 47] Such a case was
Marshall v. Holmes, 141 U.S. 589, 35 L. Ed. 870, 12 S. Ct. 62 (1891), in which the
Plaintiff alleged that judgment had been taken against her in the underlying action
as a result of a forged document. The Court said:
“According to the averments of the original petition for injunction...the
judgments in question would not have been rendered against Mrs. Marshall but for
the use in evidence of the letter alleged to be forged. The case evidently intended
to be presented by the petition is one where, without negligence, lashes or other
fault upon the part of Petitioner [respondent] has fraudulently obtained judgments
which he seeks, against conscience, to enforce by execution.” Id., at 596, 35 L. Ed.
870, 12 S. Ct. 62 (This occurred in Petitioner Viera’s case as well).
“The sense of this expressions is that, under the Rule an independent action
should be available only to prevent a grave miscarriage of justice.”
In Abdue’ Rahman, supra, Justice Steven’s also said... “In, for example, a
death row inmate could show that the State indeed committed fraud upon the
District Court during <*pg. 506> his habeas corpus proceeding (as Petitioner
Viera did so) it would be a miscarriage of justice if we turned a blind eye to such
abuse of the judicial process.” Id. at 537 U.S. 96.

8

Mr. Justice Roberts said: “No fraud is more odious than an attempt to
subvert the administration of justice. The Court is unanimous in condemning the
transaction disclosed by the record. Our problem is how best the wrong should be
righted and the wrongdoer pursued. See Hazel-Atlas, supra at Id. 322 U.S. 251.
If a convincing case of palpable fraud on the Court were presented, it is hard
to justify a holding that it would not be considered. Kenner, 387 F. 2d 689, 691 (7th
Cir. 1968).
See United States v. MacDonal, 1998 U.S. App. Lexis 22073, No. 97-7297,
1998 WL637184 (4th Cir. Sept. 8, 1998). The Court concluded that the AEDPA
does not bar a Rule 60(b) Motion premised upon fraud on the Court. Id. at #3. The
Court reached this conclusion, in part, because “actions alleging fraud upon the
Court...attack the validity of a prior judgment, based on the theory that ‘a decision
produced by fraud on the Court is not in essence a decision at all and never
becomes final.” Id. (quoting 11 Wright and Miller, Federal Practice and Procedure
§ 2870 at 409 (1995) (quoting Kenner v. Commissioner ofInternal Revenue, 387 F.
2d 689, 691 (7th Cir. 1968)).
AEDPA does not bar a successive petition for habeas corpus based upon
fraud upon the Court. See Workman v. Bell, 245 F. 3d 849, 852 (6th Cir. 2001)(“IN
our equally divided opinion denying further relief for the Petitioner ...all of the
Judges agreed that the Court can reconsider the petition if there was a fraud upon
the Court.”) The Supreme Court has held similarly with respect to a recall of the
mandate. The appellate equivalent of a 60(b) order. Calderon, 523 U.S. at 556-57
(Applying AEDPA in general to recall of the mandate because a “State’s interests
in finality are compelling when a Federal Court of Appeals issues a mandate
denying federal habeas relief,” but exempting cases of “fraud upon the Court,

9

calling into question the very legitimacy of the judgment.”) Buell, 48 Fed. Appx.
491 (6th Cir. 2002) Id. at 499..
A saving clause in Rule 60(b) provides: “This rule does not limit the power
of a Court to entertain an independent action...to set aside a judgment for fraud
upon the Court.” See Dausel v. Dausel, 90 U.S. App. DC275, 195 F. 2d 774
(1952).
The Petitioner Viera’s case is an example of cases in which the true facts
could not have been discovered, whether there was diligence or not, because the
evidence was illegally and fraudulently suppressed by the State Attorney’s and
Attorney General, therefore was not available at the time of the earlier proceedings
an on. See William v. Taylor, 529 U.S> 420, 146, L. Ed. 2d 435, 120 S. Ct. 1479
(2000) Id. at 529, U.S. 435.
The competent evidence requested by Magistrate Judge which shows the
improper influence exerted on the Court by a State’s habeas counsel Ms.
Rodriguez, was known only to the government as of the time of trial, and to Ms.
Rodriguez during Petitioner’s § 2254 petition proceeding and in the absence of the
government’s disclosure yields the conclusion that such a claim is not second or
successive.
The Petitioner asserted, that his petition is not successive because it is based
on a claim that was not available to him at the time of his prior petition. If he is
correct, the stringent requirements of § 2244 for obtaining authorization would not
apply. 28 U.S.C. § 2244(b)(3)(A). See also Burton v. Steward, 549 U.S. 147, 152,
127 S. Ct. 793, 166 L. Ed. 2d 628 at 153 (2007); United States v. Key, 205 F. 3d
773,11A (5th Cir. 2000).

10

The Petitioner Viera asserts that due to the unique facts and circumstances of
this case, along with the cases of law cited by him which would be applied to his
case, the District Court has jurisdiction to entertain his Rule 60 Motion which is
not second or successive petition.
The Petitioner pointed out that the Eleventh Circuit has long held that when
considering filing by a pro se prisoner, the Court should “look behind the label”
and determine whether the filing is cognizable under a different legal approach.
See Rule 60 Motion, pg. 3. The District Court perhaps agrees with Petitioner
stated’ The Motion to Set Aside fares no better under Rule 60(b)(6)...A Petitioner
“must demonstrate a justification so compelling that the [District] Court was
required to vacate its order.” See Appendix B, pg. 3, and also said “Petitioner does
not point to a significant” defect in the integrity of the Federal habeas proceedings”
to entitle him to relief under Rule 60(b)(6) Id. at pg. 5. To be honest, thanks to the
District Court Petitioner realize that he could be entitled to relief under Rule
60(b)(6) as well.
In Demjanjuk, 10 F. 3d 338 (6th Cir. 1993) the Court ruled: “Acting pursuant
to Fed. R. Civ. P. 60(b)(6) and All Writs Act, 28 U.S.C. § 1651, we reopened the
habeas corpus case in which we denied relief from the extradition order to
determine whether that proceeding had been tainted by fraud on the Court or
prosecutorial misconduct (both occurred in Petitioner Viera’s case) that required
our intervention.” See Harris v. Nelson, 394 U.S. 286, 299-300, 22 L. Ed. 2d 281,
89 S. Ct. 1082 (1969). We also acted pursuant to our inherent power to protect the
integrity of the judicial process within this Circuit. Id. at 356.
Demjunjuk’s Court ruled: “Upon a final determination the Court vacated
defendant’s extradition order on the grounds that Plaintiffs withholding of

11

evidence, regardless of whether it was knowingly accomplished, amounted to a
severe fraud on the Court.” Outcome: Defendant was granted his Motion to Vacate
an Extradition Order, where Plaintiff engaged in misconduct by not disclosing
information that could possibly lead to a conviction of another party. The Court
held that, although Plaintiffs withholding of such information was not proven to
be intentional, it still amounted to fraud on the Court. Id. at 338.
This is what occurred in Petitioner Viera’s case with the only difference
being that in this case the State’s habeas counsel’s abhorrent misconduct is proven
to be intentional and deliberate.
“In simple English,” the Rule 60(b)(6) “vests power in Courts adequate to
enable them to vacate judgments whenever such action is appropriate to
accomplish justice.” Klapprott v. United States, 335 U.S. 601, 614-15 (1949). It
“reflects and confirms the Courts’ own inherent and discretionary power ‘firmly
established in English, practice long before the foundation of our Republic, to set
aside a judgment whose enforcement would work inequity.’” Plaut, 514 U.S. at
233-34 (quoting Hazel-Atlas, 322 U.S. 238, 244 (1944)). See also Liljeberg v.
Health Services Acquisition Corp. 486 U.S. 847, 863-64 (1988).
Ms. Rodriguez as State’s habeas counsel did not show respect for other
human beings’ lives, when we find up and we realize how heinous and harsh and
unusual such a State habeas attorney’s misconduct is.
See Publicker v. Shallcross, 106 F. 2d 949, 952 (3d Cir. 1939), cert, denied,
308 U.S. 624, 60 S. Ct. 379, 84 L. Ed. 521 (1940))”We believe truth is more
important than the trouble it takes to get it.”) Ms. Rodriguez “Justice is late but
prevails.”

12

We are keenly aware that the State’s habeas counsel Ms. Rodriguez
fraudulent activities strikes at the heart of the District Court’s truth finding
function, and we can find the best evidence of it in the Magistrate’s Report (DE#
21, pg. 27-28) recommended denial of Petitioner’s § 2254 petition Ground Five.
The District Court refused to consider Petitioner’s Rule 60(d)(3)(l) in the
mistaken belief that “the Eleventh Circuit addressed, and rejected, all arguments
Petitioner raises in the Motion to Set Aside under Rule 60(b).” See Appendix B,
pg. 5. The Circuit Court decision (Appendix A, pg. 6) stated “The record shows
that the substantive issues raised in Viera’s Rule 60 Motion are nearly identical to
those raised in this 2013 petition and again in his 2019 Motion for Leave to file a
second or successive petition.”
The lower Courts in Viera’s case has overlooked, or ignored that in order “to
prevent a manifest injustice and a denial of due process, relief may be afforded
even to a litigant raising a successive claim.” Stephens v. State, 974 So. 2d 455,
457 (Fla. 2nd DCA 2008).
In Justice Steven’s words: “After all, a claim of prosecutorial fraud does not
rely on ‘a new rule of constitutional law’ and may not ‘establish by clear and
convincing evidence that...no reasonable fact finder would have found the
applicant guilty of the underlying offense.’ 28 U.S.C. 2244(b)(2) [28 U.S.C.S
2244(b)(2)] See Abdur’ Rahman, supra at 537 U.S. 96. It is a claim that
nonetheless must be recognized.” Mobley v. Head, 306 F. 3d 1096, 1100-1105 (CA
11 2002) (dissenting opinion). Perhaps is necessary to compare Circuit Court’s
denial of Petitioner’s § 2244(b) petition (See Rule 60 Motion, pg 5 and Appendix
A, pg. 3) with Justice Steven’s opinion before mentioned to determine that
Petitioner’s Rule 60(d)(3)(l) was the correct vehicle to present his claim of fraud

13

on the Court during his habeas corpus proceeding, (See Rule 60 Motion, pg. 1-3, 820) a defect beyond doubt in its integrity.
Under the broader standard, an allegation of fraud against the State trial
prosecutors could be sufficient to mandate an evidentiary hearing on whether the
State’s habeas counsel committed the same fraud on the habeas Courts. See Buell,
48 Fed. Appx 500 (6 Cir. 2002). Here, there is not any misconduct on part of the
State’s Federal habeas counsel, because the misconduct alleged by Buell is that of
Judge Wiest, who was not an officer of the Federal Court. But Viera alleges that in
his case the State’s habeas counsel Ms. Rodriguez, during habeas corpus
proceeding was engaged with her colleagues of the State Courts in this evil
adventure (conspired master plan) described as a deliberately planned and carefully
executed scheme designed to subvert the integrity of the judicial process, and/or
with their obstruction of the justice, to exert improper influence on the Court so
that the integrity of the Court and its ability to function impartially was directly
impinged.
Every element of the fraud here disclosed demands the exercise of the
historic power of equity to set aside fraudulently begotten judgments. Hazel-Atlas,
supra, Id. at 245, 64 S. CT. at 1001. This is not simply a case of a judgment
obtained with the aid of a witness who, on the basis of after-discovered evidence,
is believed possibly to have been guilty of perjury. Here....we find a deliberately
planned and carefully executed scheme to defraud not only the Patent Office but
the Circuit Court of Appeals. Proof of the scheme and of its complete success up to
date, is conclusive. Id. at 245-46. These statements are applicable to Petitioner’s
case.
In Browning, 826 F. 2d 335 (5th Cir. 1987) where the Court affirmed in part,

14

reversed in part and remanded to allow consideration of Defendant debtor’s claim
that the trial Court judgment was procured by fraud, the Court reasoned {826 F. 2d
344{...Although Hazel-Atlas presents facts more akin to the elements of common
law fraud, i.e., misrepresentation {1987 U.S. App. LEXIS 25} and reliance (as
Petitioner Viera’s case presents as well), than we have before us, it involves an
additional element that is alleged here: The involvement of parties’ attorneys.
Indeed, Hazel-Atlas might be read to suggest that once the determination is made
that officers of the Court have corruptly abused the judicial process, the Court is
not required to examine the effect that such conduct might have had on the
ultimate judgment, but rather the Court may rely on such conduct alone to set aside
the judgment. We make this observation because... Hazel-Atlas

allowed a

judgment to be attacked on the basis of intrinsic fraud that results from corrupt
conduct by officer of the Court. See Footnote 12 as applicable to Viera’s case.
In Bressman, 874 F. 3d 142 (3rd Cir. 2014) Bressman’s counsel argued (as
Petitioner Viera did so) that “If the were ever a case to vacate a judgment based
upon fraud on the Court, its this case. There is no question that Mr. Folkenflik (as
Ms. Rodriguez in Petitioner’s case) intentionally concealed and affirmatively
{2017 U.S. App. LEXIS 9} misrepresented critical facts to this Court in an effort
to obtain undeserved {874 F. 3d 148} double recovery for his clients and enormous
fees for himself.”
Petitioner believes that, there is a possibility Ms. Rodriguez was bribed
when she had engaged with her State Attorney colleagues in this misadventure in
Court. It is clear that not any lawyer would risk his/her attorney’s license if
something is not recovered or it is beneficial, and, no one is so ignorant in to
proceed as Ms. Rodriguez did so, especially in the fact that she did not find
evidence in the record to support State Attorney’s misleading position. There is
15

something (bribery, favors, friendship) that convinced Ms. Rodriguez in continuing
to advance a State’s fraudulent position during the Federal habeas corpus
proceeding.
The Circuit Court is apparently of the view that if they would have found in
the record any evidence that Ms. Rodriguez knowingly misrepresented and failed
to disclose pertinent facts, then they would have granted Petitioner’s Rule 60(b)
Motion. See Appendix A, pg. 7. With all due respect to the Circuit Court, the
record is replete with evidence that the State’s Federal habeas counsel knowingly
misled, deceived, and misrepresented facts to the Court and also failed to disclose
critical exculpatory evidence requested by District Court and Petitioner.
One thing to always keep in mind is the evidence or the type of evidence
presented in any litigation. After analyzing Petitioner’s true arguments and the
evidence presented in support of said arguments named C.I.’s Court docket sheet
and his criminal cases (Rule 60 Motion, Exhibit A), the Court documents known
by every officer of every Court, remains the question:
Can a Judge, prosecutor, lawyer, clerk and etc. say that Ms. Rodriguez as an
officer of the Court was not aware that the C.I. in her case was under State
supervision at the time nor that the existence of the C.I.’s Court docket sheet? She
was fully aware (There is not precedent in facts or law directed to the contrary) of
C.I. true information and whereabouts because she maliciously questioned both
issues.
When we see that the District Court relied on misleading information to
deny Petitioner’s § 2254 petition, Ground Five (See Appendix A, pg. 2-3), and the
State’s habeas counsel committed extrinsic fraud on the Court that prevented the
Petitioner from fully and fairly presenting the arguments made here before his
16

original Federal habeas petition was denied in 2013, we see also that the best
course this Court could take would be simply to punish the wrongdoers because the
evidence presented in this case indicates a need to correct a clear defect in habeas
corpus proceeding that seriously affected the fairness, integrity and public
reputation of judicial proceeding, and a grave miscarriage of justice suffered by the
Petitioner.
Petitioner Viera is entitled to a fair trial. He has not had it. Certainly the
undenied facts alleged here along with the undenied exculpatory evidence in
support presented justify setting aside the order and final judgment denying
Petitioner’s 28 U.S.C. § 2254 petition. Fair hearings are in accord with elemental
concepts of justice and the language of the “other reason” clause of 60(b) is broad
enough to authorize the Court to set aside an above mentioned final judgment and
grant Petitioner a fair hearing. See Klapprott v. United States, 335 U.S. 601 at 615.
This Court should bear in mind that risk that the denial of relief in this case
will produce injustice in other cases. There simply no reason to permit this to
happen to other Courts and other inmates, and the risk of undermining the public’s
confidence in the judicial process. This Court must continuously bear in mind that
“to perform its high function in the best way justice must satisfy the appearance of
justice.” See In re Murchison, 349 U.S. 133, 136, 99 L. Ed 942, 75 S. Ct. 623
(1955) (citation omitted).
Again, there is simply no reason to permit this to happen to other inmates by
subjecting them to a lawyer’s abuse of power. State’s habeas counsel Ms.
Rodriguez was allowed the privilege of a license to practice law and to provide
good representation as the public deserves, and she has blatantly abused and
misused that license and the trust that must be attached to that privilege.

17

Dishonesty and a lack of candor cannot be tolerated by a profession that relies on
the truthfulness of its members. This Court should be severe enough to deter others
who might be prone or tempted to become involved in like misconduct.
After some years of success, Ms. Rodriguez frustrated due to the discovery
of her flagrant fraud on the Court brought by Petitioner to the knowledge of the
Court through the judicial process afforded by the Rules of Civil Procedure under
Rule 60(b), she appealed to technicalities in hope that Petitioner’s Rule 60(b)
Motion will be barred due to the fact that she cannot deny what she did, so this
Court should expressly hold that in this case technicalities do not overcome a
serious pattern of misconduct.
In Hael-Atlas, supra, Id. at 322 U.S. 250 <*pg. 1258> the question remains
as to what disposition should be made of this case. Hartford’s fraud (representing
Ms. Rodriguez’s fraud and her colleagues in Petitioner Viera’s case), hidden for
years but now admitted (uncovered in Viera’s case) had its genesis in the plan to
asserting mislead information concerning the C.I.’s identity, whereabouts, and
involvement in this case for the deliberate purpose of deceiving the State Courts,
District Federal Court and the like. The plan was executed and the State
prosecutor’s misleading statement was put to fraudulent use during all the
proceeding contrary to law. From there the trial of fraud continued, without break
through State Courts and up to the District Court. Had the District Court learned of
the fraud on the State Court, it would have been warranted in reversal of
Petitioner’s case for at the minimum a new trial. So, also, could the District Court
have dismissed Petitioner’s conviction had it been aware of Ms. Rodriguez’s
corrupt activities in suppressing the truth concerning the C.I. requested by
Magistrate Judge. The total effect of all this fraud, practiced both on the State
Courts and the District Court during habeas proceedings, calls for nothing less than
18

a complete grant of relief to Petitioner Viera.
CONCLUSION
The Petitioner Viera maintains his innocence and so contends that had it not
been for State’s habeas counsel’s egregious misconduct and fraud upon the Court,
when looked at through the totality of circumstances, this conviction would not had
been possible and the outcome of his § 2254 proceeding would had been different.
The Petitioner respectfully prays that this Honorable Court grants his Petition for a
Writ of Certiorari.

Respectfully submitted,

l

U* <3

"Nelson Viera, pro se
DC# M35846
Everglades Correctional Institution
1599 SW 187th Ave.
Miami, FI. 33194-2801
Date: January 25,2021.

19

